HHS/OIG, Audit -"Review of Medicaid Speech Claims Made by the New York City Department of Education,"(A-02-02-01029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Speech Claims Made by the New York City Department of Education," (A-02-02-01029)
June 16, 2005
Complete
Text of Report is available in PDF format (4.0 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Federal Medicaid payments for speech services claimed by New
York City Department of Education were in compliance with Federal and State requirements.  Eighty-six
of 100 speech claims in our sample did not comply with requirements and 68 of the sampled claims contained
more than 1 deficiency.  Specifically: (1) For 42 claims, we were unable to verify that the services
billed were rendered.  (2)  For 47 claims, we were unable to verify that a minimum of 2 speech
services were rendered during the month billed.  (3) Two claims lacked any documentation at all.  (4)  Forty-three
claims lacked a referral by an appropriate medical professional.  (5) For 24 claims, no childs
plan/family plan was provided or the plan was untimely.  (6) One claim did not include a recommendation
for speech services in the childs plan/family plan.  (7) For 76 claims, the services were not
provided by or under the direction of an individual certified by the American Speech-Language-Hearing
Association or a similarly qualified person.  As a result, we estimate that the State improperly
claimed $435,903,456 in Federal Medicaid funding during our audit period.
We recommend that the State (1) refund $435,903,456 to the Federal Government, (2) provide proper
and timely guidance on Federal Medicaid criteria to New York City Department of Education, (3) reinforce
the need for New York City Department of Education to comply with Federal and State requirements, (4) improve
its monitoring of New York City Department of Educations speech claims to ensure compliance with Federal
and State requirements, and (5) instruct New York City Department of Education to maintain appropriate
documentation to support its speech claims.  In written comments on our draft report, State officials
disagreed with most aspects of the report, including the audit period, approach, criteria, and conclusions,
and stated that the draft report should be withdrawn.  The State also expressed concern that we
had applied Federal regulations designed for a medical office setting to an educational setting and
that we had not conducted our audit in accordance with generally accepted government auditing standards.